<html>
<title> - NATIONAL SECURITY: THREATS AT OUR BORDERS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
               NATIONAL SECURITY: THREATS AT OUR BORDERS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                AND THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2016

                               __________

                           Serial No. 114-117

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                      
                            ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-641 PDF             WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                         
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
 Troy Stock, Staff Director, Subcommittee on Transportation and Public 
                                 Assets
                          Dimple Shah, Counsel
               Alexa Armstrong, Professional Staff Member
                           Willie Marx, Clerk
                   Subcommittee on National Security

                    RON DeSANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California

                                 ------                                

                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 23, 2016...................................     1

                               WITNESSES

Mr. Ronald D. Vitiello, Acting Chief, U.S. Border Patrol, Customs 
  and Border Protection
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Steven C. McCraw, Director, Texas Department of Public Safety
    Oral Statement...............................................    20
    Written Statement............................................    22
Mr. Brandon Judd, President, National Border Patrol Council
    Oral Statement...............................................    41
    Written Statement............................................    43
Ms. Jan C. Ting, Professor of Law, Temple University Beasley 
  School of Law
    Oral Statement...............................................    48
    Written Statement............................................    50
Ms. Eleanor Acer, Senior Director, Refugee Protection, Human 
  Rights First
    Oral Statement...............................................    57
    Written Statement............................................    59

                                APPENDIX

U.S. Border Parol Nationwide Apprehensions, FY 2015- FY 2016 as 
  of March 3, 2016, Entered by Chairman DeSantis.................    88
U.S.C.I.S. Credible Fear Nationality Reports from FY 2014, FY 
  2015, and FY 2016 Q1, Entered by Chairman DeSantis.............    91
U.S.C.I.S Credible Fear Data and Affirmative Asylum Case Data, 
  Entered by Chairman DeSantis...................................   100
Written Statement of Representative Gerald Connolly, Entered by 
  Representative Connolly........................................   101


               NATIONAL SECURITY: THREATS AT OUR BORDERS

                              ----------                              


                       Wednesday, March 23, 2016

                  House of Representatives,
 Subcommittee on National Security, joint with the 
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 9:00 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the Subcommittee on National Security] presiding.
    Present from Subcommittee on National Security: 
Representatives DeSantis, Mica, Hice, Lynch, and Kelly.
    Present from Subcommittee on Government Operations: 
Representatives Meadows, Walberg, Buck, Grothman, and Connolly.
    Mr.  DeSantis. The Subcommittee on National Security and 
the Subcommittee on Government Operations will come to order. 
Without objection, the chair is authorized to declare a recess 
at any time.
    The United States confronts a wide array of threats at its 
borders, ranging from terrorists seeking to harm the United 
States to transnational criminals smuggling drugs and 
counterfeit goods to foreign nationals entering illegally in 
order to work in the United States unlawfully.
    America's borders and ports are busy places. Every year, 
tens of millions of cargo containers and hundreds of millions 
of lawful travelers enter the country, while tens of thousands 
of illegal cargo entries are seized and hundreds of thousands 
of unauthorized migrants are arrested or denied entry.
    At the same time, hundreds of thousands of illegal 
immigrants evade detection to enter the United States 
unlawfully and thousands of kilograms of illegal drugs and 
other contraband are smuggled into the country.
    Recent terrorist attacks in the United States and Europe 
and worldwide have highlighted the national security challenges 
that we face. The November terrorist attacks in Paris 
transformed Europe's migration crisis into a security debate, 
spurring calls for European nations to reevaluate their open 
border policies. Yesterday's terrorist attacks in Brussels 
demonstrate the strength of the Islamic State, but also 
highlight the policies of European nations that have 
facilitated the establishment and growth of Islamic communities 
within these countries that are parallel to rather than 
integrated in Western society.
    Concerns about borders are not limited to Europe. Recent 
reports state that the U.S. Customs and Border Protection has 
apprehended several members of known Islamist terrorist 
organizations crossing the southern border in recent years.
    The Texas Department of Public Safety has reported that 
border security agencies have arrested several Somali 
immigrants crossing the southern border who are known members 
of al-Shabaab, the terrorist group that launched the deadly 
attack on the Westgate shopping mall in Nairobi, Kenya, as well 
as other Somali-based groups, including one funded by Osama bin 
Laden.
    The Texas DPS stated that it had come into contact in 
recent years with ``special interest aliens'' who come from 
countries with known ties to terrorists or where terrorist 
groups thrive.
    In all, immigrants from over 30 countries throughout Asia 
and the Middle East have been arrested over the past few years 
trying to enter the United States illegally in the Rio Grande 
Valley. Now the committee has obtained information from the 
Customs and Border Protection that confirms thousands of 
Indians, Chinese, Bangladeshi, and Sri Lankans have been 
apprehended at our borders in fiscal years 2014, 2015, and the 
first quarter of 2016. This data also shows that individuals 
have sought to enter the United States illegally from 
Afghanistan, Pakistan, Syria, Turkey, and beyond.
    One potential vulnerability that such individuals could 
attempt to exploit is our Nation's generous asylum system. 
Aliens making asylum claims after they are apprehended by 
Border Patrol for entering illegally are being released into 
American society by the Obama administration.
    The number of aliens making credible fear claims has 
increased exponentially in recent years. According to 
information provided to the committee by USCIS, the number of 
credible fear claims increased from 4,995 in fiscal year 2008 
to 51,001 in fiscal year 2014, an increase of 921 percent.
    Additionally, DHS is approving those claims the vast 
majority of the time. In fact, the approval rate is 87 percent.
    By claiming to have a credible fear, these aliens set in 
motion a process that can forestall their removal while 
allowing them to remain in the United States potentially for 
years. Dangerous individuals such as gang members, cartel 
operatives, and even supporters and members of terrorist 
groups, could exploit the system. Such individuals could 
attempt to enter illegally. And if they successfully evade the 
Border Patrol, they can remain in the United States. If they 
get caught, they can make a credible fear claim and likely be 
released.
    During a recent visit by staff to El Paso, Border Patrol 
and ICE confirmed that they are seeing increased numbers of 
Bangladeshi, Somalis, Pakistanis, and other nationals of 
countries of concern coming across the southern border and 
claiming credible fear.
    These anecdotal reports are supported by information that 
USCIS provided the committee that states that thousands of 
nationals of these and other countries have claimed credible 
fear in recent years. For these reasons, Texas DPS has stated 
that ``an unsecure border with Mexico is the State's most 
significant vulnerability as it provides criminals and would-be 
terrorists from around the world a reliable means to enter 
Texas and the Nation undetected. This is especially concerning 
today, in light of the recent terrorist attacks and schemes 
around the world.''
    I thank our witnesses for their testimony today and look 
forward to examining issues related to national security 
threats at our border and what can be done to combat this 
growing problem.
    I now recognize Mr. Lynch, the ranking member of the 
Subcommittee on National Security, for his opening statement.
    Mr.  Lynch. Thank you very much, Mr. Chairman.
    I also want to thank the panelists for helping the 
committee with its work.
    I would like to also thank Chairman Meadows and Ranking 
Member Connolly for holding this hearing as well to examine 
immigration and border security.
    I would also like to thank our witnesses again for your 
expertise in this area.
    As reported by the United Nations High Commissioner for 
Refugees, we are witnessing the largest global forced 
displacement of people since World War II. Conflict, 
persecution, violence, and flagrant human rights violations 
have forcibly displaced nearly 60 million people worldwide, 
including 19.5 million refugees, 38 million internally 
displaced persons, and 1.8 million asylum-seekers. That is a 60 
percent increase from 37.5 million displaced people recorded by 
UNHCR a decade ago.
    Over 50 percent of the refugee population is now made up of 
children below 18 years of age, marking the highest child 
refugee figure in more than 10 years. In 2014, over 34,000 
asylum applications were submitted by unaccompanied or 
separated children across 82 countries. That is the highest 
count on record since the agency began collecting this data in 
2006.
    The war in Syria and the rise of the Islamic State have 
been the driving factors behind the unprecedented surge in 
global displacement. Approximately 7.6 million people have been 
internally displaced within Syria alone, and more than 4 
million refugees have fled the country since the start of the 
conflict in 2011.
    The stark increase in global forced displacement coupled 
with devastating terrorist attacks in Paris, San Bernardino, 
Beirut, Istanbul, and Ankara in Turkey, and just yesterday in 
Brussels, Belgium, have led to ongoing policy debates in the 
U.S. over how best to prevent terrorists from infiltrating our 
legitimate immigration processes.
    This is a critical and necessary examination that must 
entail fact-based oversight of our existing immigration and 
border security policies across-the-board. In the interest of 
national security, it must also be undertaken in a manner that 
continues to reflect our longstanding international commitment 
as a signatory to the 1951 Geneva Convention to protecting 
highly vulnerable individuals who are fleeing from persecution 
and violence, and as stated in a recent letter to Congress 
signed by 22 U.S. national security leaders from Democratic and 
Republican administrations alike, and I quote, ``We believe 
that America can and should continue to provide refuge to those 
fleeing violence and persecution without compromising the 
security and safety of our Nation. To do otherwise would 
undermine our core objective of combating terrorism.''
    These leaders included General David Petraeus, the former 
Commander of U.S. Central Command; George Schultz, the former 
Secretary of State under President Reagan; and former NATO 
Supreme Allied Commander James Stavridis, who is now at Tufts 
University.
    In furtherance of this committee's efforts to review our 
national security framework, Congressman Steve Russell of this 
committee and I recently traveled on an oversight mission to 
Turkey, Jordan, and Lebanon to assess and even participate in 
the vetting processes required for Syrian refugee settlement to 
the United States.
    After visiting refugee camps along the Turkish-Syrian and 
Jordanian-Syrian borders, and meeting with various refugee 
families, we discovered that the vast majority, between 70 and 
80 percent, are not even interested in resettlement at all. 
Rather, they seek to stay in the neighboring host countries, 
Turkey, Lebanon, and Jordan, in the hopes of returning home.
    The overwhelming preference of these families is to stay 
close to Syria, indicating that one of our primary national 
security goals should be to ensure that financially strained 
host countries and international humanitarian agencies have the 
resources necessary to provide a dignified life for their 
refugee populations in place.
    Regarding the vetting process itself, I must say that prior 
to our oversight visit, I had my serious doubts about the 
effectiveness of vetting conducted in virtual warzone 
environments, and I supported both the Republican and 
Democratic measures to enhance the vetting process.
    I would note that the delegation arrived in Beirut only 
several months after a double suicide bombing in that city that 
killed over 40 people. We arrived in Istanbul only 4 days after 
a suicide bombing in a central square that killed 10 German 
tourists. And we left Kilis province only 1 day before a rocket 
attack fired from Syria hit a Kilis school.
    However, for the small percentage of families who do seek 
resettlement to the United States, what we found in our 
oversight of vetting centers in all three host countries was a 
multilayered vetting process that is robust and extensive. It 
is conducted by specialized U.N. and U.S. agency personnel 
trained to ensure that only the most thoroughly vetted and the 
most vulnerable, or 1 percent, of Syrian refugee applicants are 
admitted for resettlement.
    They are also very cautious in their work, given that any 
misstep in the vetting process could not only pose a grave 
danger to the American public, but also effectively halt 
resettlement for millions of legitimate refugees.
    It is this type of fact-based oversight that should guide 
our review of immigration and border patrol procedures across-
the-board. This is absolutely imperative at a time when our 
Federal agencies responsible for securing homeland security 
face severe budgetary constraints and every homeland security 
dollar must be allocated toward the most critical national 
security risks.
    Mr. Chairman, I thank you again for holding this hearing, 
and I look forward to discussing these and other issues with 
our witnesses, and I yield back the balance of our time.
    Mr.  DeSantis. I thank the gentleman. I now recognize the 
chairman of the Subcommittee on Government Operations, Mr. 
Meadows, for his opening statement.
    Mr.  Meadows. Thank you, Mr. Chairman. Thank you for your 
leadership.
    And thank you, Ranking Member Mr. Lynch, for your not only 
fact-based willingness to look at the record, but also your 
willingness to work in a bipartisan manner to address this 
serious issue.
    From the surge of unaccompanied minors and family units 
from Central America coming across our border to the ongoing 
Syrian refugee crisis, as well as the fiancee visa that was 
erroneously issued to the San Bernardino terrorist Tashfeen 
Malik, there seems to be no shortage of immigration issues that 
impact our national security. So today's hearing takes a closer 
look at the national security implications at our Nation's 
porous borders.
    Now, I want to emphasize that it is a national security 
interest that brings us here today. There are plenty of other 
rhetoric and discussion that can go on as it relates to 
immigration and immigration policy. But, indeed, this is 
looking at not only immigration but at border security and how 
it affects national security.
    It has been in the forefront of much of the political 
discussion in recent months. The Department of Homeland 
Security officials have often indicated to the American public 
that our borders are more secure today than they have ever 
been. I think many of us have heard that. They tout the low 
number of apprehensions as proof, which seems to be a little 
counterintuitive to me.
    In fact, the GAO, the Government Accountability Office, has 
indicated that the DHS has no official metrics in place to 
measure whether our border is secure or not. So those 
statements are very difficult to comprehend, if there are no 
metrics in place.
    Representatives from the Border Patrol tell us that the 
situation at the border is exactly the opposite of what the 
administration claims.
    Undoubtedly, the United States has a proud history of 
providing refuge to victims of persecution and will continue to 
be unwavering in our commitment to be that beacon of freedom 
and hope for those facing persecution around the world. But 
when this administration fails to enforce our immigration laws, 
or turns a blind eye to the rampant fraud and abuse while 
rubberstamping--rubberstamping--credible fear claims at a rate 
as high as 92 percent, the integrity of our system is 
undermined. Our generosity is taken advantage of and our 
national security is at risk.
    We should seek to protect the integrity of our immigration 
system from fraudulent claims made by those seeking to do us 
harm or subvert our rule of law. Individuals who seek to 
defraud the asylum process make a mockery of those who are 
truly persecuted, for those who are fleeing from fear.
    The United States is one of the most generous nations in 
the world, and our asylum system is an extension of that 
generosity. And yet, various organizations are coaching people 
to claim credible fear in order to avoid deportation.
    By invoking the credible fear claim, most aliens enter into 
a process by which they await proceedings before an immigration 
judge, which at the very least buys them more time in the 
United States. It often takes years, multiple years, before 
those court dates take place.
    In the meantime, the alien is allowed to obtain a work 
permit, go about their business in the United States and, 
indeed, could embed in our communities. It seems to me that the 
word is out that claiming credible fear is the way to go.
    The numbers sure say that much to me, and as we look at the 
credible fear claims that have grown exponentially in recent 
years, as Chairman DeSantis mentioned in his opening remarks, 
one of my biggest concerns is that nefarious actors have taken 
advantage of our generosity.
    Gang members, cartel operators, supporters of terrorist 
groups can game the system and make use of credible fear to 
remain here in the United States. Even according to DHS, aliens 
with known or claimed ties to cartels and terrorist groups have 
been apprehended along the border claiming credible fear.
    The data this committee has received confirms that the 
Border Patrol is encountering migrants from Afghanistan, 
Bangladesh, Egypt, Iran, Iraq, Lebanon, Pakistan, Saudi Arabia, 
Somalia, and Turkey. Now this is coming across our southern 
border, and these are just the individuals that were 
apprehended.
    So what about all of those who were never seen by law 
enforcement at all and make it into the interior of our 
country?
    I hope to hear from our witnesses today on their assessment 
of the current holes that might enable these bad actors to take 
advantage of our system. Most importantly, I would like to hear 
what should be done to address these deficiencies and help 
ensure the safety of the American public.
    Mr. Chairman, I would like to ask unanimous consent to 
enter the following documents into the record. One would be 
U.S. Border Patrol nationwide apprehensions for 2015 and 2016. 
The other is the USCIS credible fear nationality reports for 
fiscal year 2014, 2015, and for quarter one of 2016, and the 
USCIS credible fear data and affirmative asylum case data. I 
ask unanimous consent.
    Mr.  DeSantis. Without objection.
    Mr.  Meadows. And with that, I would yield back, Mr. 
Chairman. I thank you.
    Mr.  DeSantis. Thank you. I will hold the record open for 5 
legislative days for any members who would like to submit a 
written statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Mr. Ronald Vitiello, Acting Chief of the U.S. Border 
Patrol at the U.S. Customs and Border Protection; Mr. Steven 
McCraw, director of the Texas Department of Public Safety; Mr. 
Brandon Judd, president of the National Border Patrol Council; 
Professor Jan Ting, professor at the Temple University Beasley 
School of Law; and Ms. Eleanor Acer, senior director of refugee 
protection at Human Rights First. Welcome all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify.
    If you can please rise and raise your right hand?
    Do you solemnly swear the testimony you are about to give 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Thank you. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
oral testimony to 5 minutes. Your entire written statement will 
be made part of the record.
    Mr. Vitiello, you are up. Five minutes.

                       WITNESS STATEMENTS

                STATEMENT OF RONALD D. VITIELLO

    Mr.  Vitiello. Thank you, Chairman DeSantis, Chairman 
Meadows, Ranking Member Lynch, and distinguished members of the 
subcommittees. It is an honor to appear before you today to 
discuss the role of the United States Border Patrol in 
protecting national security and defending threats against our 
border.
    During my law enforcement career of more than 30 years in 
the U.S. Border Patrol, the border environment has changed not 
only the intentions, tactics, and capabilities of our 
adversaries, but also in our resources, our capabilities, and 
our operational approach to securing the border.
    Today, we focus not only on responding to the complex and 
rapidly changing border conditions, but we also work to 
decrease the risk and potential threats. We do this through 
strategic and risk-based deployment of resources, and by 
expanding and increasing our capabilities through intelligence, 
information-sharing, partnerships, and operational 
collaboration.
    In all border environments--land, air, and sea--technology 
is critical to security operations. Effective fixed and mobile 
surveillance and detection systems provide increased 
situational awareness of illicit cross-border activity. 
Advanced technology also increases our ability to identify 
changes in the border environment and rapidly respond as 
appropriate to emerging threats along and approaching our 
borders.
    Detecting and interdicting terrorists and their weapons 
will also be a focus priority of the border security mission.
    Also, the illegal cross-border activities of transnational 
criminal organizations involved in cross-border trafficking of 
guns, currency, human smuggling, and drugs pose a continuous 
threat to border security and public safety.
    Responding to the continued flow of unaccompanied alien 
children and families across the Southwest border is also a 
priority.
    The border regions in the United States are most secure 
when using a whole-of-government approach that leverages 
interagency and international partnerships as a force 
multiplier. The Border Patrol is an active participant in the 
DHS Southern Border and Approaches Campaign, and has a leading 
role in the Joint Task Force-West, an integrated operational 
approach to addressing the threat of transnational criminal 
organizations along and approaching the Southwest border. This 
effort directs DHS resources in a much more collaborative 
fashion to address the broad and complex range of threats and 
challenges, including illegal migration; smuggling of illegal 
drugs, humans and arms trafficking; illicit financing of such 
operations; and the threat of terrorist exploitation of border 
vulnerabilities.
    The creation of the task force increases information-
sharing between Federal, State, local, and international law 
enforcement agencies; improves situational awareness; enhances 
border-wide interdiction operations; and improves our ability 
to counter transnational threats and associated violence.
    Using a risk-based and intelligence-driven approach, the 
Border Patrol and more broadly CBP and DHS will continue to 
enhance our efforts, anticipate and respond to threats to 
national security, and ensure the safety of the U.S. public.
    The continued focus on unity of effort, in conjunction with 
intelligence and operational integration, the deployment of 
advanced technology, enhances our situational awareness, better 
enables us to effectively and efficiently detect, respond to, 
and disrupt threats in the Nation's border regions and 
approaches to the secure the homeland.
    In closing, let me state the obvious. It is the men and 
women of CBP and the Border Patrol agents who face the threats 
that we will discuss today. Agents deploy in all manner of 
weather and rough terrain 24/7/365.
    I am blessed to be in their leadership cadre. I am grateful 
for their dedication and professionalism. The Nation is safer, 
and the communities that they serve are better protected 
because of their efforts. They have my unwavering support and 
continued effort to let them do their jobs in the safest manner 
possible.
    Thank you for having me as a witness today. I look forward 
to the opportunity to testify and your questions.
    [Prepared statement of Mr. Vitiello follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Mr.  DeSantis. Thank you.
    Mr. McCraw, 5 minutes.

                  STATEMENT OF STEVEN C. McCRAW

    Mr.  McCraw. Mr. Chairman, members, thank you for the 
opportunity to testify before you today. Steve McCraw, Texas 
Department of Public Safety.
    I want to echo a few comments that the chief made, but I 
would be remiss of two things if I didn't first mention the 
Governor's comments yesterday on the aftermath of the Brussels 
attack, the cowardly attack by terrorists.
    He pointed out that our hearts and prayers are with the 
Brussels victims. Our minds must realize the consequences of 
open borders. And our resolve must be security.
    Clearly, the Governor and the Texas State Legislature 
understand the scope and magnitude of the threat and 
vulnerability of Texas and the rest of the Nation.
    What happens on the Texas-Mexico border doesn't just affect 
Texas or even just the border region. It affects the entire 
Nation, whether it is transnational crime or if it is a 
national security threat.
    Clearly, special interest aliens are a problem, and we've 
recognized that. This is not a new phenomenon. As the FBI 
Special Agent in Charge in 2002, we learned that Border Patrol 
was detaining, detecting, detaining, apprehending individuals 
from countries with known Al Qaeda presence at that point in 
time. That's continued on. It's understandable why Texans are 
concerned from a national security standpoint.
    To that point, we've talked about changes that we've seen 
over the years, and the chief referred to. Crime is remarkably 
different. It's more transitory. It's transnational. It's 
organized. It's more discreet.
    Certainly, it can compromise and undermine public safety 
and homeland security and national security.
    From a Texas standpoint, it's been very clear in terms from 
the Governor and our State Legislature that two things in terms 
of guiding principles--a sense of urgency and unity of effort.
    Fortunately, with the chief over here, I know when he was 
sector chief of Rio Grande Valley for the Border Patrol, he was 
a team player. And we were able to do unity of effort and work 
closely with him.
    I can tell you right now that if properly resourced, they 
have the leadership and type of people that can get the job 
done to secure the Texas-Mexico border. That's important.
    Until that time, our strategic intent by our Legislature, 
our Governor, the Texas Department of Public Safety, working 
with our local and other State partners that includes Texas 
Military Forces, our game wardens, will provide direct support 
to Border Patrol in the detection, deterrence, and interdiction 
of smuggling events that occur between the ports of entry, and 
do so very aggressively.
    Every day, we deploy Texas State troopers, Texas Rangers 
and special agents in the Department of Public Safety from 
around the State down to the Rio Grande Valley where right now 
is the epicenter of drug and human smuggling into the United 
States, and we'll continue to do so. This will be our direction 
until the border is secure.
    There are a number of things that certainly can be done, if 
properly resourced. There's no doubt that Border Patrol can get 
the job done. We look forward to that day when they do have the 
resources to be able to do that.
    That concludes my comments at this point.
    [Prepared statement of Mr. McCraw follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Mr.  DeSantis. Thank you.
    Mr. Judd, 5 minutes.

                    STATEMENT OF BRANDON JUDD

    Mr.  Judd. Chairman DeSantis, Chairman Meadows, Ranking 
Member Lynch, I appreciate the opportunity to testify on behalf 
of the 16,500 Border Patrol agents which I represent.
    I am going to stick to my comments on the national security 
threat of the border and leave out the rhetoric and what might 
have led to it. But what I will tell you is that the Obama 
administration and CBP Commissioner Kerlikowske have repeatedly 
told the American public that the border is more secure today 
than it has ever been. As a Border Patrol agent, I will tell 
you the exact opposite.
    Commissioner Kerlikowske and the administration have 
pointed to a decrease in arrests over the past several years, 
but they failed to give the American public key indicators such 
as the number of arrests of persons from countries with known 
terrorist ties or from countries that compete economically with 
our interests.
    In all of fiscal year 2015, the United States Border Patrol 
arrested five persons from Afghanistan, 57 from Pakistan, and 
1,327 from the People's Republic of China. Already in the first 
5 months of this fiscal year, the United States Border Patrol 
has arrested 18 from Afghanistan--the first quarter, five of 
all last year, the first quarter--18 from Afghanistan, 79 from 
Pakistan--all of 2015, again, was 18--and 619 from the People's 
Republic of China. Those numbers should alarm everyone.
    We are seeing a similar trend from other key countries like 
Albania, Bangladesh, and Brazil.
    If the single factor for the litmus test is lower numbers, 
then compared to fiscal year 2015, one must conclude we are 
failing.
    As someone who has been involved in border protection for 
over 18 years, I can unequivocally tell you the border is not 
secure, and the situation is getting worse instead of better.
    Arrests are not the only factor in determining whether the 
border is secure. We have to look at the totality of the 
situation, such as violence, the number of persons evading 
arrest, and whether organized crime continues to turn a profit.
    In the context of the times, we must also look at whether 
persons from country who would do us harm are able to exploit 
our weaknesses through our policies or the lack of manpower on 
the border.
    It is well-documented that criminal cartels control the 
border in the same way inmates control most prison facilities. 
The cartels are extremely well-organized, pathologically 
violent, and have an entire infrastructure on both sides of the 
border.
    In Mexico, it is estimated that over 150,000 people have 
been killed in cartel-related violence. They have killed police 
officers, judges, elected officials, and ordinary civilians who 
have crossed their path.
    This is the opponent Border Patrol agents face daily. It is 
an opponent that controls all aspects of border crimes, 
including narcotics and illegal immigrant smuggling.
    One key way to determine whether the cartels are winning is 
to analyze key data of entries to arrest. Two weeks ago, I was 
visiting a station in the Del Rio Border Patrol sector. During 
that week that I was there--I was there 1 day, but during that 
week in which I was there, a total of 157 known entries came 
into the United States through that station's area of 
responsibility.
    Of those 157: 74 were arrested; 54 were known to have 
evaded arrest and furthered their entry into the United States; 
17 were able to evade arrest and make it back to Mexico; and 12 
were still outstanding and unaccounted for.
    That is a 47 percent arrest rate. That is not very good.
    But it's not the Border Patrol agents' fault. We're just 
simply overmanned. We don't have the resources that are 
necessary.
    In fact, yesterday I received an email from an agent in 
Arizona, and that email said that there was a 10-mile stretch 
for 2 days, and this is documented on the reports from the 
Border Patrol management, a 10-mile stretch of border that was 
unmanned for 2 whole days.
    Criminal cartels were able to go to the fence, cut a hole 
in the fence, drive two vehicles through that hole and escape. 
They were able then to put the fence back up and try to hide 
the cuts that they had made.
    Border Patrol agents were able to go down and see the 
vehicle tracks. There was actually a camera that did catch the 
two vehicles on the border. They didn't see the vehicle drive 
through the border, but the tracks clearly indicate that it 
was, and there was no were no other vehicles coming from east, 
so it had to be those two vehicles that crossed the border.
    The scariest part of those vehicles entering into the 
United States is we don't know what was in this vehicles. We 
have no idea.
    Of those persons that were able to evade arrest in this Del 
Rio station, those 54 and the 12 outstanding, we don't know 
where they were from.
    It's unfortunate that we're currently in this situation in 
which it appears that we invite what we're currently 
experiencing. And because we are overmanned--and it's not that 
they didn't want to man the border in these two areas in 
Arizona that this vehicle drove through, they just didn't have 
the manpower to do it. That is the unfortunate situation today.
    I look forward to answering any and all of your questions. 
Thank you very much.
    [Prepared statement of Mr. Judd follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr.  DeSantis. Thank you.
    Professor Jan Ting, 5 minutes.

                    STATEMENT OF JAN C. TING

    Mr.  Ting. I share the comments of my copanelists. Thanks 
to the two subcommittee chairmen and all the members for 
inviting us here today.
    I also share the concern over the statistical information 
that the members, particularly Mr. Meadows, have referred to. 
And I share the concern that Mr. Judd has just expressed about 
the situation at our border.
    I want to talk about two issues, in particular, expedited 
removal and credible fear, that I think bear on the concern 
that many of us here share.
    Prior to 1996, we had no expedited removal, and arriving 
aliens in the United States could basically stay for a long 
time by making an asylum claim. There was an enormous backlog, 
and they were put in line and released on their own 
recognizance.
    There was also a 60 Minutes piece which showed that people 
were landing at Kennedy Airport every single day without 
documentation and being released into the general population. 
That I think pushed Congress in 1996 to enact expedited 
removal, which on its face provides a way to turn arriving 
aliens around who lack any documentation.
    The problem is, as I discuss in my written comments, in one 
of the classic bipartisan compromises for which Congress is 
alternately praised and condemned, Congress enacted expedited 
removal in a way that provides that if the--first of all, they 
did two things.
    First of all, they determined that the first interview 
would be a credible fear interview. In the end, even though 
they tried to take the immigration judges out, as I discuss in 
my written comments, the immigration judges get back into the 
process anyway. So while it looks good on its face, expedited 
removal in practice hasn't worked out very well, even though it 
has been expanded not just to arriving aliens but within 100 
miles of the border.
    So expedited removal is potentially a useful tool, but it's 
hobbled by this credible fear determination and by the ultimate 
right to delay removal by an appeal to an immigration judge. So 
there are two problems.
    I talked in my written comments about credible fear, and 
where did credible fear come from anyway? I have some knowledge 
about that, because I know that in 1991 in the midst of the 
Haitian migrant crisis, when we had a lot of Haitians heading 
for the United States, we were trying to kind of in a chaotic 
situation manage that flow and provide asylum interviews for 
people. It was very difficult. In fact, we started operating 
the detention facilities at Guantanamo in an effort to cope 
with that migrant crisis.
    And the Immigration and Naturalization Service invented 
credible fear kind of on-the-fly as a way of screening out 
people who obviously were not entitled to asylum. If people 
couldn't even present a story, which, if true, would entitle 
them to asylum, we determined that they could be turned around 
immediately and returned to Haiti without a full-blown asylum 
interview.
    On the other hand, for those people who could articulate a 
coherent story that seemed credible, they would be allowed to 
advance to a full-blown asylum interview, recognizing there was 
a backlog for that and it would slow the process down. But for 
those people, they would get the full asylum interview.
    As it turns out, that credible fear practice was very 
short-lived, because the numbers were so enormous that 
President Bush, George H.W. Bush, determined that we couldn't 
continue processing migrants from Haiti. And he determined that 
they would all be returned to Haiti without any processing at 
all.
    Obviously, that was challenged by many advocates and went 
all the way to the Supreme Court of the United States, and the 
Supreme Court of the United States in 8-to-1 decision in a case 
called Sale v. United States, which I cite in my written 
remarks, the Supreme Court of the United States held that that 
was fine, that the United States had no obligation under its 
own laws or under international law to conduct asylum 
interviews on the high seas.
    So credible fear was a temporary measure that probably 
wasn't even necessary in the end. It only lasted for a few 
months.
    And I was startled to see credible fear appear in the 
statute of the United States as part of our expedited removal 
process. When expedited removal came in, credible fear shows up 
in the statute. Where does that come from?
    So while it was invented as a device to screen out 
migrants, as has been commented on, it's being used now as a 
device to screen people in, so they don't have to actually 
approve their asylum claims. All they have to do is state a 
credible fear and they are basically in. They join the queue 
for an immigration judge, so they can make their asylum claim 
in removal proceedings. And we know that can sometimes take a 
long time.
    And that the word is out, this is how you do it. You make a 
good credible fear claim and you're in. In this age of modern, 
instantaneous communications, that word spreads quickly.
    So I am very concerned about that. And I have a number of 
proposals. I'm over time already, but I do want to say, I think 
we need to train more asylum officers. We ought to train all of 
our immigration offices, including Border Patrol agents, in 
asylum law, and we ought to have them do asylum interviews.
    I think we ought to, as I propose in my written comments, 
remove credible fear from the statute. It doesn't belong there. 
We should go straight to an asylum interview. And we ought to 
have enough asylum officers, including trained Border Patrol 
agents and other Customs and Border Patrol officers, to do 
that.
    I have other recommendations, and I refer you to my written 
comments. Thank you.
    [Prepared statement of Mr. Ting follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr.  DeSantis. Thank you.
    Ms. Acer, you are up for 5 minutes.

                    STATEMENT OF ELEANOR ACER

    Ms.  Acer. Thank you so much, Chairman DeSantis, Chairman 
Meadows, Ranking Member Lynch, and members of the 
subcommittees. It is an honor to be here today to offer our 
views regarding national security at our borders and the 
importance of the U.S. commitment to protect refugees.
    The horrific terrorist attacks in Brussels yesterday are 
yet another reminder of the terrible harms that terrorists are 
inflicting on innocent civilians around the world.
    Human Rights First is a nonprofit organization with offices 
in Texas, New York, and Washington, D.C. We operate one of the 
largest pro bono legal representation programs for asylum-
seekers in the country, working in partnership with lawyers 
from some of the Nation's leading law firms.
    The United States can and must protect its national 
security, and can and must do so while also complying with its 
human rights and refugee protection commitments, as made clear 
in the letter from leading national security experts of both 
parties referenced earlier by Ranking Member Lynch.
    Both at the formal points of entry as well as at our land 
borders, CBP has extensive tools and databases to identify 
individuals who present a risk to national security, including 
databases that contain information from various U.S. agencies 
and foreign sources. For cases that enter the process through 
credible fear as well, DHS asylum officers also conduct a range 
of vetting and checks. Before an individual can be granted 
asylum, they have to be either interviewed by an asylum officer 
or through an immigration court hearing.
    Only a very small portion of the world's refugees seek 
protection here in the United States. The increase in Central 
American claims from the Northern Triangle, including children 
and families, have not only affected the United States. The 
U.N. refugee agency has reported that the countries of Mexico, 
Belize, Costa Rica, Nicaragua, and Panama have seen the number 
of asylum applications from the Northern Triangle countries 
grow to nearly 13 times what it was in 2008.
    While a very small portion of asylum-seekers also come from 
outside the hemisphere, many of those small numbers come from 
top refugee-hosting states, as well as from China.
    U.S. leadership in protecting refugees is not only a 
reflection of American ideals, it also advances U.S. national 
security and foreign policy interests.
    Earlier this year, I too visited Jordan, Lebanon, and 
Turkey to assess the Syrian refugee crisis. The critical 
infrastructures of frontline refugee-hosting states are under 
severe pressure. And as Ryan Crocker, former U.S. Ambassador to 
Syria, Iraq, and Lebanon, has explained, U.S. efforts to share 
in hosting some Syrian refugees affirmatively advance U.S. 
national security interests by helping to protect the stability 
of a region that is home to some key U.S. allies.
    In our policies and practices, as well as in public 
rhetoric, it's critical to distinguish between the victims of 
terror and repression on the one hand, and the perpetrators of 
horrific acts on the other.
    As a number of leading U.S. national security experts have 
described, efforts to bar Syrian refugees, for example, are 
counterproductive from a national security perspective, as they 
actually help the ISIL narrative. Former DHS Secretary Michael 
Chertoff has cautioned that you don't want to play into the 
narrative of the bad guy. That's giving propaganda to the 
enemy.
    A strong asylum and immigration system that adjudicates the 
immigration removal cases before it in a timely and fair manner 
is essential both for ensuring the integrity of the U.S. 
immigration process as well as for protecting refugees from 
return to places of persecution.
    Yet, over 480,000 immigration court removal cases have now 
been pending for an average of 667 days in the U.S. immigration 
courts, with projected average wait times around 3 years. We 
urge Congress to support the addition of immigration judges and 
additional support staff to address this backlog.
    Finally, the current asylum system is actually failing to 
provide protection in a manner consistent with this country's 
commitments. Over the years, so many barriers and hurdles and 
technical complexities have been added to the asylum system 
that refugees who seek the protection of the United States 
often find themselves denied asylum, delayed in receiving 
protection, or, in many cases that we see from our work day in 
and day out, lingering for months in jails and jail-like 
immigration detention facilities.
    In our experience, the expedited removal system and the 
credible fear process, which I think has a 78 percent pass 
right now, is actually preventing many legitimate refugees from 
even applying for asylum. I am happy to answer questions about 
this.
    Many cannot navigate this increasingly complicated system 
without legal counsel, and many go unrepresented because they 
cannot afford that.
    In my testimony, I have outlined a number of additional 
recommendations, and I'm happy to talk about those. Thank you 
so much for the opportunity.
    [Prepared statement of Ms. Acer follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr.  DeSantis. Thank you. The chair now recognizes himself 
for 5 minutes.
    Mr. McCraw, your agency issued a report saying that several 
Somali immigrants crossing the border who are known members of 
al-Shabaab have been apprehended, as well as other Somali-based 
terrorist groups. Can you describe the aliens of special 
interest that you have seen coming across the border, the 
threat posed, and how Texas is dealing with that population?
    Mr.  McCraw. As previously testified by others here, 
clearly, there are special interest aliens anywhere from 
Afghanistan to Yemen that have been coming across the Texas-
Mexico border that have been detected and apprehended by Border 
Patrol. That is a fact.
    As it relates to al-Shabaab, the connection to Somalians, 
it's an FBI case. It was prosecuted and is open-source 
information regarding the support--a Somalian smuggling 
operation out of San Antonio that would bring Somalians across 
and help them resettle across the United States. And there had 
been a nexus determined in the investigation to terrorism.
    We're mindful of that. We're also mindful of other aspects, 
in terms of it.
    Until we get a handle on our borders, until we're secure 
between the ports of entry, and no one is able to cross between 
the ports undetected, there's no way to tell in terms of the 
scope and magnitude of the problem that we--exists right now, 
frankly.
    And there's no excuse not to secure the border. It can be 
done. If the proper resources are applied and Border Patrol 
given those resources, it absolutely can be done.
    Until that time, Texas has made it very clear the Governor 
and State Legislature want to spend whatever it takes to 
support Border Patrol to get it done, because it's too 
important to Texas.
    Mr.  DeSantis. Mr. Judd, CBP will often say that since 
apprehensions are down, the border is more secure. How does 
that number account for those who the Border Patrol doesn't 
ever see?
    Mr.  Judd. It doesn't. As I previously stated, those drive-
throughs, because there were no agents assigned in that area in 
which the drive-through took place, if it wasn't for a camera 
that actually saw the vehicles, we wouldn't have even known 
that those vehicles had crossed.
    So if we don't have the resources to assign to a specific 
area, then we don't know what is crossing that area.
    And I would like to correct myself. I looked back at my 
notes. It wasn't 2 days that that area was open. It was open 
for a long stretch of period of time, but I don't know exactly 
how long. I know that it was at least one shift and more than 
that. So I just wanted to correct that.
    Mr.  DeSantis. We have received reports from Border Patrol 
agents that sectors and offices reporting lower apprehension 
numbers are often rewarded, and that apprehensions when they 
fall between jurisdictions of different offices within a 
sector, those apprehensions are simply not counted.
    Have you heard similar reports suggesting that CBP might be 
fudging the apprehension data?
    Mr.  Judd. Not only have I heard similar reports, I've 
actually seen it. When I was assigned to the intel office at 
one of the Border Patrol stations which I worked, there was a 
note that came across the desk from a watch commander, a high-
ranking manager, that said you must remove these numbers from 
the got-away report, because there's no entry point, and 
therefore, if there's no entry point, then we can't say where 
it entered, and therefore, we can't reconcile the numbers.
    The question that was posed to this watch commander was, 
well, we know that they got away. Where are we going to report 
that they got away? He said, well, if there's no entry point, 
then there were no got-aways. And we said but we have the 
evidence that they got away. He said no, there are no got-
aways, remove it. And we were forced to remove it.
    Mr.  DeSantis. And I hear some of the witnesses talking 
about resources, and I agree resources are an issue.
    But, Mr. Judd, isn't our functional policy basically catch-
and-release at this point? In other words, you can have beefed 
up Border Patrol, but if people know that if they just get 
across the border, they are most likely going to be given a 
citation and be released and then they come back in a year or 
whatever, to me, that is still going to be a major incentive 
for people to come in illegally. Am I wrong?
    Mr.  Judd. Well, the resources are important and, in part, 
you're correct. In part, you're wrong.
    In, let's say, for instance, the Del Rio sector, the Del 
Rio sector does not necessarily release a whole lot of illegal 
aliens. Because they have Immigration and Customs Enforcement, 
they have the bed space to hold onto these people.
    So the main determining factor is, do we have the space to 
hold onto these individuals? If we do have the space to hold 
onto them, then Immigration and Customs Enforcement, they do 
hold onto them. But if we don't have the space for them, then 
we release them. That's where the resources come into play.
    Mr.  DeSantis. Professor Ting, CBP has confirmed that 
aliens from special interest countries are being apprehended by 
Border Patrol. USCIS has confirmed that aliens claiming 
credible fear have been subject to terrorism bars in the INA.
    Do you think that the administration's policies regarding 
aliens who arrive at the border could encourage more nefarious 
actors to attempt to enter the United States illegally along 
the Southwest border?
    Mr.  Ting. I think it's reasonable to assume that the 
nefarious actors you're referring to are constantly looking for 
ways to gain entry to the United States.
    As I said earlier, in the age of instantaneous 
communications, the flaws in our border security system are 
known instantaneously and are carried in the media. I think 
it's a legitimate concern. And I applaud the committee here for 
taking an interest in this subject.
    Mr.  DeSantis. So once that word gets out, as you say, 
basically, if you are somebody who wants to do the United 
States harm, you can come to the border, claim credible fear, 
you will likely be released, receive a work permit, and then 
you will have a court date, what, in a couple years?
    Mr.  Ting. Yes. In the olden days, what used to happen, I 
believe, is that if people came to the border and wanted to 
make an asylum claim, we told them, fine, we'll schedule you 
for an appointment, come back to the border, but we're not 
going to admit you.
    Indeed, there is still a code section, 235(b)(2)(C) in the 
Immigration and Nationality Act, which authorizes the return of 
arriving aliens to contiguous territory from which they 
arrived. So there is statutory authority for turning people 
around at the border, if we wanted to exercise it as we used to 
once upon a time.
    Mr.  DeSantis. So do you think if we moved away from some 
of these loopholes, moved away from a more catch-and-release 
posture, obviously, people that would come could be 
apprehended, but then wouldn't that be a deterrent for other 
people to realize that is probably not the best use of my time 
and money to try to go across the southern border, if they 
think there is a probability that the law is actually going to 
be enforced?
    Mr.  Ting. Yes, absolutely. I think it would help to have 
an administration that is really serious about defending the 
border and enforcing the laws enacted by Congress. But I also 
think there are things Congress can do to tighten up the laws: 
taking credible fear out; requiring asylum officer training for 
more immigration officers, so asylum officers are available in 
larger numbers so we can do processing on the border; and, as I 
mentioned, turning around people at the border and saying, if 
you want to make a claim, come back when we have time to 
interview you and we'll interview you. There's statutory 
authority for that already.
    Mr.  DeSantis. Great. My time is expired.
    I now recognize the ranking member, Mr. Lynch, for 5 
minutes.
    Mr.  Lynch. Thank you very much.
    I really appreciate your opening statements and testimony. 
I want to drill down. I do not want to spend a lot of time on 
this, but let's talk about the credible fear standard.
    As I read the 1951 Geneva Convention for refugees, it says 
``well-founded fear.'' That is the standard, well-founded fear. 
When I see this standard, you are talking about credible fear. 
When you go to Webster's or New Collegiate Dictionary, ``well-
founded'' is ``credible,'' and ``credible'' is ``well-
founded.''
    I don't understand what the dickering is all about. Isn't 
it really the same standard as the Geneva Convention?
    Mr.  Ting. No, it is absolutely not the same standard. The 
Geneva Convention established what has become the international 
standard for asylum.
    Mr.  Lynch. Just the fear. We are talking about the fear.
    Mr.  Ting. A well-founded fear of persecution on account of 
one of five specific reasons--race, religion, nationality, 
social group, or political opinion.
    So first of all, what is persecution, right? And what is 
race, religion, nationality, social group, and political 
opinion? There is a whole body of law that's developed around 
that standard in the United States and internationally.
    Mr.  Lynch. We are talking about the fear that that person 
has.
    Mr.  Ting. Credible fear is something that was, as I 
suggest, made up on-the-fly for administrative convenience.
    Mr.  Lynch. It seems very close to the Geneva Convention 
standard, though. When you look it up, Webster's Dictionary, 
credible versus well-founded, it is not totally made up if it 
means exactly the same thing. I know in application, it is 
different. I am not questioning that.
    Mr.  Ting. All I can say is that everyone on the ground who 
was dealing with that issue at the time, credible fear was a 
clearly different and lower standard.
    Mr.  Lynch. Okay. I hear you. You said that already.
    Ms. Acer, could you?
    Ms.  Acer. Thank you. I just want to also caution that the 
United States has to--not only does it have obligations under 
the international Refugee Convention, but we also have to think 
about the example we set to other states.
    If we were to start turning away people at our border who 
apply for asylum, what message does that send to Jordan, to 
Lebanon?
    Mr.  Lynch. Yes, but can we talk about my question, though?
    Ms.  Acer. Yes. I'm so sorry.
    Mr.  Lynch. Thank you.
    Ms.  Acer. In terms of the credible fear process, to answer 
your question, it was set up, the 1996 law, instead of allowing 
people to actually go into immigration court removal 
proceedings, allowed people to be deported on the order of a 
CBP officer, essentially.
    In order to make sure we were complying with our 
obligations, a screening process was set in, so that the U.S., 
the idea was, would not inadvertently deport someone who should 
have a shot at applying for asylum.
    Mr.  Lynch. Okay.
    Ms.  Acer. We have found in our day-in-and-day-out 
practice, as I said, that actually many people who are 
legitimate refugees are not passing that process.
    Mr.  Lynch. Okay.
    Ms.  Acer. And the immigration judge review that was 
mentioned happens in just a couple days, very quickly, and in 
rare cases.
    Mr.  Lynch. Okay. I have 2 minutes left, and I want to get 
to this other issues.
    There are pull factors and push factors. We did a couple 
codels. We went down to San Salvador. We went down to 
Tegucigalpa. And we went down to Guatemala City.
    And so we were at the airport when the people--largely, 
mostly kids, but a few parents--when the kids arrived back in 
Tegucigalpa, I think it was.
    So we had stopped them at the border and sent them back, 
and the plane arrived around 11 o'clock. By 1 o'clock in the 
afternoon, every kid had been picked up. Every child had been 
picked up and taken home by their families.
    The deal there, in talking to the immigrants, these 
families that are trying to get into the United States 
illegally, they said the range was $7,000 to $8,000 per person, 
and they get three tries. They get three tries to get into the 
United States.
    They call them ``coyotes.'' I don't like using that term, 
because it has a romantic appeal to it. These are human 
traffickers, okay? And they are putting these kids at grave 
risk in this whole exercise here.
    So what I am getting at is, there is a push factor. 
Actually, there is a pull factor by having low standards in 
this country for allowing immigrants to come in. But there is 
also a push factor, because there is an industry down there in 
Central America that it is much more profitable than smuggling 
drugs. And most of these countries don't have human trafficking 
laws in place down there, so they can do this, and there are no 
real dire consequences as there would be if they were 
trafficking in drugs or guns.
    So I am asking my Border Patrol folks, is this the nature 
of the problem? What is a greater factor, the pull factor of 
the United States being lax or the push factor of the industry 
down there that is actually pushing people up to our border?
    Mr. Vitiello?
    Mr.  Vitiello. Thank you, Congressman.
    We found in our reporting that there's a multitude of 
factors that drive folks away from their home country, and 
then, like you say, get pulled into the U.S. So smugglers have 
taken advantage of the situation wherein people believe that if 
they came to the United States, they would be able to stay. We 
have reports that smugglers are actually using that concept to 
draw more people that might otherwise not consider the trip.
    Mr.  Lynch. Right. Okay.
    Mr. McCraw?
    Mr.  McCraw. Clearly, the Mexican cartels have adopted 
people as a commodity, and human trafficking clearly is a core 
business now of the Mexican cartels.
    The pull part is they want to encourage as many to come 
across, because unlike drugs, they don't need precursor 
chemicals. They don't have to grow it. They make an immediate 
profit, even when they get to the river. They don't even have 
to get across the river to get a profit.
    Then they further compound it by when they move them across 
the river, often they will load them down in stash houses and 
continue to extort them for additional money, so it's an 
ongoing process.
    Clearly, the cartels get a vote in terms of that push and 
that pull factors going into the United States.
    Mr.  Lynch. Okay, Mr. Judd, do you have anything to add?
    Mr.  Judd. Absolutely. It comes down to risk-reward.
    There is very little risk when you are smuggling migrants. 
The laws of the United States, the accountability that we hold 
these human traffickers when we arrest them, it's a very low 
standard.
    However, if we arrest a drug smuggler that's smuggling 
cocaine, methamphetamine, or something like that, then the 
consequences are much greater.
    Mr.  Lynch. I spend a lot of time in the Middle East, and 
so do a lot of members on this committee.
    When Angela Merkel back last August said Germany welcomes 
the Syrian refugees, we will take them, she ended up with 1.3 
million. She never expected it. Now they are sort of backing 
away from that. That was a pull factor. That was a pull factor.
    When you talk to the Syrians on the border, they all want 
to go to Germany, because they were beckoned to do so.
    I am just wondering if we have a similar situation here 
because we didn't see the surge when there was civil war in El 
Salvador, when there was civil war in Nicaragua. We did not see 
the huge--and those people could've legitimately said, I have a 
civil war back home, and I need to come to the United States. 
We didn't see the requests at the border that we are seeing 
now.
    I don't know. There is something else going on here. Maybe 
we are part of it up here creating this problem.
    I yield back. You have been very courteous. I appreciate 
it, Mr. Chairman.
    Mr.  DeSantis. I thank the gentleman.
    The chair now recognizes the gentleman from North Carolina, 
Mr. Meadows, for 5 minutes.
    Mr.  Meadows. Thank you, Mr. Chairman.
    Let me follow up a little bit on what Mr. Lynch just talked 
about, because as we start to look at this particular issue, 
there is a big difference between refugees and asylum-seekers.
    Somehow we put those two together, assuming that they are 
one and the same. Indeed, they are not one and the same. We 
have different processes for those.
    I serve on the Global Health and Human Rights Foreign 
Affairs Subcommittee. There is nothing that is more close to my 
heart, in terms of those who are truly in need.
    But what Mr. Lynch was talking about really comes to mind, 
what are the places that are most troubled from a standpoint of 
people needing asylum or refugee status? What countries come to 
mind as being the most horrific right now?
    Ms. Acer, what country would you put in the top two?
    Ms.  Acer. I guess you could look at it in terms of numbers 
and then, of course, you have Syria.
    Mr.  Meadows. So Syria would be number one.
    Ms.  Acer. I am not going to rank them right now, but I 
would say certainly ----
    Mr.  Meadows. Is it in the top five?
    Ms.  Acer. Yes, I would say so.
    Mr.  Meadows. All right. The reason I come there is because 
what Mr. Lynch was talking about is, if indeed the worst place 
in the world is Syria, what we would see is coming across our 
southern border this mass infiltration from Syria. But really, 
when we start to look at the numbers, it is not bearing that 
out as much.
    So, Mr. Ting, I need to understand the process, because Ms. 
Acer had talked about the fact that these asylum-seekers come 
and they sit in jail.
    Now we have been led to believe that, since 2009, there was 
a different administration rule that would not actually put 
them in jail. Mr. Judd would apprehend them. They would go 
through and seek credible fear. And then they would be released 
and not sit in jail waiting for that.
    Is that correct, Mr. Ting?
    Mr.  Ting. Well, there are two distinct programs. You 
referred to refugees. We operate an overseas refugee program.
    Mr.  Meadows. Right.
    Mr.  Ting. I think the most generous overseas refugee 
program in the world, taking well-over 55,000 a year ----
    Mr.  Meadows. The State Department is involved with that. A 
number of other ----
    Mr.  Ting. But that is a pick-and-choose program.
    Mr.  Meadows. Right.
    Mr.  Ting. We get to pick which refugees are of special 
interest to the United States and bring them to the United 
States.
    The asylum program allows people who are already here to 
apply for asylum, and there is no numerical limit on asylum.
    So if you can claim that you're a refugee and you're 
already here, under our law and international law, we cannot 
return you to your home country. You qualify for discretionary 
asylum status in the United States, which can put you on a path 
to a green card and eventually becoming a U.S. citizen along 
with everybody else. No numerical limit.
    So it's very tempting, I think, given the fact that you may 
be a refugee in a displaced persons camp in Jordan or Turkey, 
and if the U.S. doesn't pick you, you are kind of stuck there. 
But if you can get yourself into the United States or at the 
border and make the claim, then you're going to get processed 
sooner or later.
    I think that is a great temptation. As Mr. Lynch says, that 
is a pull factor, to the extent that people have a realistic 
expectation. And I think the administration, frankly, is trying 
to balance expectations and is deliberately, I think, trying to 
deter people by imposing some consequences on their coming to 
the United States and making claims.
    Mr.  Meadows. So I can tell by the nonverbal gestures to 
your right from my standpoint, that she does not agree, so go 
ahead. I will give you very short--I have very limited time.
    Ms.  Acer. Thank you.
    We are certainly protected from a large Syrian influx at 
our border by our geographical location, but the Northern 
Triangle countries are incredibly dangerous. As I mentioned 
before, asylum requests are up significantly in the region as 
well.
    I would just say, in our day in and day out, we represent 
asylum-seekers who pass through the credible fear process and 
are held in very jail-like facilities, which the U.S. 
Commission on International Religious Freedom has said are ----
    Mr.  Meadows. So, Mr. Judd, you put them in jail? If they 
have credible fear claims, your Border Patrol puts them in 
jail?
    Mr.  Judd. It strictly depends upon where it's at. If it's 
in RGV, most likely not. We just don't have the bed space. If 
it is in the Tucson sector, most likely not. We do not have the 
bed space. If it is in the Del Rio sector, I will tell you I 
drove by where we put them and it is anything but a jail. 
There's no fences. There's nothing around it. In fact, it's 
been described to me more like a country club.
    Mr.  Meadows. Okay. So we either let them go, or we put 
them in what you would classify as a country club setting, is 
what you're saying?
    Mr.  Judd. From what I saw, yes.
    Mr.  Meadows. So part of the testimony here is that we deny 
a whole lot. Let me ask you this. It appears, in 2013, that we 
approved 92 percent of the people coming across our border, in 
terms of fiscal year 2013. Ninety-two percent of the people who 
came across and said there is a credible fear got approved. I 
guess in the first quarter of this year, it is actually 86 
percent.
    So if we are looking at approving that many, everybody who 
comes across and says--it is almost everybody who comes across 
who says I have a credible fear, I want asylum.
    Is that the reason those numbers continue to go higher, Mr. 
Judd?
    Mr.  Judd. What I can tell you is what we see on the 
border. Unfortunately, I don't go through the entire process. 
All I do is I arrest people, and then I ----
    Mr.  Meadows. So do they get a long interview? I guess when 
they ----
    Mr.  Judd. No. No.
    Mr.  Meadows. So what is the interview like?
    Mr.  Judd. By Border Patrol agents, when we arrest them, if 
they're from countries other than Mexico, it's very quick. All 
they have to do is claim that they have a credible fear.
    Mr.  Meadows. So if I am speaking Farsi, I can come across 
and say I have a credible fear, and I do not get a real 
interview?
    Mr.  Judd. No, you don't.
    Mr.  Meadows. So the very people that may be terrorists, 
and I don't want to categorize one particular group as speaking 
a particular language, but those are higher threat areas to us 
based on their past history, they get a shorter interview?
    Mr.  Judd. Well, for special interest countries, we 
actually turn them--we notify the FBI immediately, if they are 
from a special interest country. We won't even interview those 
individuals.
    For instance, in Sonoita, when we arrested the Afghanis and 
Pakistanis, the most recent that I am aware of, they were 
immediately turned over to the FBI. We didn't even interview 
them.
    But from countries that are not considered special 
interest, from, say, China, Bangladesh would be the same, it's 
a very short interview. As long as they tell us that they have 
a credible fear, the interview basically ends at that point for 
the Border Patrol.
    Mr.  Meadows. All right. Thank you.
    I yield back. I appreciate the patience of the chair.
    Mr.  DeSantis. I thank the gentleman.
    The chair now recognizes the gentlewoman from Illinois for 
5 minutes.
    Ms.  Kelly. Thank you, Mr. Chair.
    Welcome, witnesses.
    In today's complex threat environment, effective 
counterterrorism and law enforcement efforts rely on 
sophisticated intelligence-gathering and sharing capabilities. 
Especially because of their exponential effects, we should 
focus our efforts to strengthen the border on these 
intelligence capabilities.
    Mr. Vitiello, your written testimony states, and I quote, 
``A whole-of-government approach that leverages interagency and 
international partnerships as a force multiplier has been and 
will continue to be the most effective way to keep our borders 
secure.''
    Which other agencies does Customs and Border Patrol share 
intelligence or information with to secure the border?
    Mr.  Vitiello. So all of the entities, State, local, 
tribal, that are at the immediate border, and then we have 
important relationships in the contiguous countries, Canada and 
Mexico, with their federal police, with their immigration 
authorities, their customs group. And also CBP has the benefit 
of having a worldwide footprint. So in all the places where 
we're active, either providing services for people who are 
coming to the country or a liaison relationship in places like 
Mexico and Canada to exchange important law enforcement 
information.
    So anybody that has the common interest of securing the 
border, gathering intelligence to aid in counterterrorism 
efforts, et cetera, those are all the people that we interact 
with.
    Ms.  Kelly. Can you further explain how these partnerships 
act as a force multiplier?
    Mr.  Vitiello. As a simple example with Mexico's 
immigration authorities, when the surge of unaccompanied minors 
started in 2014, several requests through the liaison and then 
official government requests for Mexico to do more at their 
southern border and the INM group, their immigration authority 
group, stepped up and effectively shut down some of the more 
common routes of people coming to the United States and was 
seeking out to prosecute smugglers who were responsible for 
some of that activity.
    That led to an overall reduction in people who could use 
those routes. We are still challenged by that, but we were able 
to support their work with liaisons and mentors in Mexico to 
understand the challenges that they have and give them, where 
we could, tips and advice and mentorship so that they could do 
their work better.
    Ms.  Kelly. That is a good example of how interagency and 
international partnerships can strengthen the border. Any other 
examples?
    Mr.  Vitiello. So we have also a very important 
relationship in Canada as well. We share information about 
threats that we perceive coming from the U.S. into Canada and 
vice versa, lots of information exchange. Then it is the 
responsibility of our leadership in the field to maintain good 
relationships with all law enforcement communities, so that we 
can identify and understand which of the threats are most 
important by community and then work together to abate them.
    Ms.  Kelly. It seems as though, when you hear about threats 
to the border, it is always the southern border, not as much 
the northern border. What are the percentages? Or is that how 
you would describe it?
    Mr.  Vitiello. So overwhelmingly, our resources are 
dedicated to the southern border. That is where the activity is 
represented by the large numbers, volumes of people, volumes of 
things, because of the nature of the real estate and the 
differences in both economies, et cetera.
    But we also have important work that we do with Canada, and 
we do similar things as it relates to identifying where we need 
to be situationally aware on the border, technology to help us 
patrol and monitor. And then obviously the relationships are 
key in understanding the threats that are faced.
    Ms.  Kelly. Okay. Your testimony continues, ``DHS works 
with our Federal, State, local, tribal, and international 
partners, particularly Canada and Mexico, to address 
transnational threats.''
    What types of helpful information does Canada and Mexico 
provide that the U.S. would not otherwise have access to?
    Mr.  Vitiello. So at CBP, and obviously this is true with 
other Federal law enforcement, is we help identify the criminal 
networks that are responsible for human trafficking, gun 
smuggling, illicit financing.
    So what we do is we try to understand amongst ourselves, 
with them and ourselves, what the threats are and how to combat 
them, and then help identify by network which are the most 
problematic criminal enterprises.
    Ms.  Kelly. Do you feel these partnerships have improved 
over time, and you are getting more and more information, and 
there is more of a comfort level with these other agencies?
    Mr.  Vitiello. So it ebbs and flows, as it relates to the 
international engagement. I think in Canada, it has been stable 
and very well-used for quite some time.
    In Mexico, it sort of ebbs and flows with the changes of 
administration, et cetera. But they have been a strong partner 
with us, especially at the Federal police level and their 
immigration authorities.
    Ms.  Kelly. Thank you so much.
    Thank you, Mr. Chair.
    Mr.  DeSantis. The chair now recognizes the gentleman from 
Florida, Mr. Mica, for 5 minutes.
    Mr.  Mica. Thank you, Mr. Chairman, for holding this joint 
hearing. I think there couldn't be a better time, with 
incidents that we have seen most recently and around the world 
relating to terrorism and our border vulnerability.
    I guess you would probably conclude that our borders are 
porous, a sieve, and tens of thousands of illegals are coming 
across the border.
    Would that be appropriate, Mr. Judd? Do you think that is 
correct?
    Mr.  Judd. That is correct. Border Patrol agents, these are 
very motivated individuals. They want to do the best that they 
can. They do the best that they possibly can.
    Mr.  Mica. You described the vehicle. They cut the wires 
and came through. You don't know whether there were drugs, 
weapons, explosives. It could have carried great quantities of 
that across the border.
    Mr.  Judd. It could've been anything.
    Mr.  Mica. Let me ask the DHS representative, I just heard 
that El Chapo, the noted drug kingpin and czar, crossed the 
border. He bragged about it, I guess after his capture, like he 
was coming on some regular vacation journey to the United 
States. Are you aware of that?
    Mr.  Vitiello. No, I had not heard that.
    Mr.  Mica. Not only were we informed that he was crossing 
routinely, now we have evidence that some of the weapons, at 
least one of the weapons that was found when he was captured 
was from the Fast and Furious collection, which was provided by 
the U.S. Government. You are not aware of that either?
    Mr.  Vitiello. I did see that in media reports.
    Mr.  Mica. Okay.
    Most disturbing. Mr. Judd, you gave some excellent 
testimony. You described one of the issues, and you said the 
Border Patrol, due to DHS prosecutorial discretion guidelines, 
released more than 3,800 illegal aliens who were in our custody 
and were subject to deportation proceedings. And you said they 
were released simply because they claimed to have been in the 
United States continuously since January 2014.
    This amnesty through policy of the administration, this is 
the President's policy of amnesty? Is that what rules the 
proceedings?
    Mr.  Judd. If you ask Border Patrol agents, absolutely.
    Mr.  Mica. So we have allowed tens of thousands--I saw an 
estimate of about 50,000 criminal illegals in the United 
States, a guesstimate.
    They are subject to deportation, aren't they?
    Mr.  Judd. Yes. Anybody that's here illegally is subject to 
deportation.
    Mr.  Mica. But, again, we have allowed millions with a sort 
of waiver and tied your hands, which you put in your written 
testimony.
    Not only the borders but the airports are now our borders 
where people are flying in, whether it is from Europe, or 
Central or South America, around the world.
    And there is a Credential Screening Gateway System, which 
is outlined in an IG report, June 4, 2015. It says worker 
credentials, and these are workers at the airport that, in 
fact, we don't have thousands of passport numbers. These are 
people with, for example, no alien registration number for 
immigrants working in our airports, 14,000; no passport number 
for immigrants, 75,000; first names with two characters or 
less, 1,500; what is this, 87 some thousand-some working--
87,000 active and we don't have those records.
    Are you aware of that, Mr. Vitiello? This is a DHS 
inspector general report.
    Mr.  Vitiello. It's not particularly my area, but I am 
aware of the reporting on that subject.
    Mr.  Mica. So the borders are a sieve. We have people 
working at our airports who are aliens who we don't even know 
anything about. We don't have confirmed their alien 
registration numbers or their passport numbers. Is that 
correct?
    Mr. Chairman, I would like this page to be made part of the 
record.
    Mr.  DeSantis. Without objection.
    Mr.  Mica. Finally, if I may, in my local community, my 
police chiefs, who I have met with the last few weeks--we have 
a big drug epidemic in Florida and around the Nation--but we 
were talking about that. And we talked about illegal aliens.
    They say they arrest them. They detain them. They call the 
Border Patrol. And they advise them that they can't help. And 
they are often just escorted to the county line.
    Are you aware that that is going on in our local 
communities, our local jurisdictions and borders?
    Mr.  Vitiello. I was not, Congressman. What area is this?
    Mr.  Mica. Central Florida.
    Mr.  Vitiello. We're not particularly well-staffed in 
Florida at all. Central Florida is not ----
    Mr.  Mica. But they are dumping them back into the 
community, and you all are refusing to do anything.
    Maybe some of it is what Mr. Judd described. We have let 
them through presidential edict stay here and not be 
accountable.
    Thank you. I yield back.
    Mr.  DeSantis. The gentleman's time has expired.
    The chair now recognizes the gentleman from Virginia for 5 
minutes.
    Mr.  Connolly. I thank the chair, and I would ask unanimous 
consent that my statement be entered into the record in full.
    Mr.  DeSantis. Without objection.
    Mr.  Connolly. I thank the chair.
    Mr. Vitiello, in listening to this last line of 
questioning, gosh, I seemed to think some progress has been 
made, but maybe I am wrong.
    How many Border Patrol agents are there now on the southern 
border?
    Mr.  Vitiello. On the southern border, approximately 17,500 
or so.
    Mr.  Connolly. And how many would there have been 8 years 
ago?
    Mr.  Vitiello. Eight years ago, it would have been at least 
half that.
    Mr.  Connolly. Right. So we have doubled them.
    And the immigration reform bill that had been worked out on 
a bipartisan basis in the Senate would have doubled that again. 
Is that correct?
    Mr.  Vitiello. I believe so.
    Mr.  Connolly. Yes. So we doubled the Border Patrol agents.
    Deportations, they have fallen to record lows in that 8-
year time period, Mr. Vitiello?
    Mr.  Vitiello. I think that our activity overall over the 
last several years has seen a reduction with the buildup of 
resources that we've had.
    Mr.  Connolly. No, but is it not true that in this last 8-
year period, we actually had record deportations?
    Mr.  Vitiello. I've seen various reports of the numbers. I 
think there was a time that those numbers were higher, and now 
have dropped off commensurate with the reductions.
    Mr.  Connolly. Because we more effective at deterring.
    At the height of deportations in the last 8 years, Ms. 
Acer, were they higher than in the previous 8 years?
    Ms.  Acer. I believe they hit around 400,000, which was an 
all-time high.
    Mr.  Connolly. An all-time high. In this administration?
    Ms.  Acer. Yes, that is my understanding.
    Mr.  Connolly. Right. Not hiding by executive order and so 
forth. Sounds good.
    But actually there is another record to be told.
    Going back, Mr. Vitiello, to your point about secure 
borders, so you mean to say it is hard to get into the United 
States, the borders are less porous, because the measures that 
were put in place, including personnel, are in fact more 
effective? Is that correct?
    Mr.  Vitiello. We are certainly more capable than we were, 
as far as the number of agents, the levels of technology, the 
infrastructure that has now been in place, and the improvements 
that we made.
    Mr.  Connolly. And all of that combined has allowed us to 
catch people if they try to cross the border?
    Mr.  Vitiello. Well, we certainly have gotten much more 
capability.
    Mr.  Connolly. So we are deterring lots of people at the 
border?
    Mr.  Vitiello. It is hard to measure deterrence. I think we 
have seen, if you look back over the historic highs in the 
number of arrests we were making, we have seen a reduction in 
that. The panel has already talked about insufficient measure 
of apprehensions alone, but we have seen reductions in activity 
that are commensurate with the improvements that we have made 
not only in sort of the physical structures, more agents, et 
cetera, but in other things that we're doing, post-arrest 
interviews, consequence delivery, et cetera.
    Mr.  Connolly. Mr. Mica made the point, he used El Chapo as 
an example, but we hear it anecdotally, people who are 
deported, including bad actors, gang leaders, especially from 
El Salvador and Honduras, who multiple times they are deported 
and multiple times reenter the United States. Deportation is 
not, for them, some sort of penultimate punishment or 
deterrence, for that matter.
    Could you comment on that? What are we doing to try to make 
sure that repeat entrants, illegal entrants, are in fact 
permanently barred and deterred, and we are effective at it?
    Mr.  Vitiello. So we do track the number of arrests people 
have, both for criminal violations as well as their previous 
immigration history. Through things like the consequence 
delivery system, we target people who we know are going to be 
repeat offenders or re-cross multiple times, and then seek with 
the assistance of the U.S. Department of Justice, U.S. attorney 
offices locally, to prosecute those folks when we find them.
    Mr.  Connolly. Do you have a special division or a special 
targeting task force or a system with respect to gang 
activities? Certainly, in a lot of our communities, we are 
worried about people, bad actors, who are vicious gang members, 
often from Central America, and we don't want them in our 
communities, and we don't want them in this country, and we 
want them back home, although that causes problems, too, we 
understand.
    But are you targeting that particular subgroup in this 
context?
    Mr.  Vitiello. So in the context of consequence delivery 
system, anybody that is a repeat offender we seek to use the 
maximum effect of Federal prosecutions when they are re-
encountered by our officers in the United States. And in all 
the cities and the towns that are represented, we work with our 
State, local, Federal partners in the task force environment, 
and some of those are specifically dedicated to gang activity.
    Mr.  Connolly. Mr. Chairman, if I could just follow up?
    Okay, that is good, but I am asking, can we target them and 
profile them as a likely repeat offender to reenter, and that 
is what we want to deter to begin with?
    Mr.  Vitiello. So what we do is we aggregate the data to 
understand that when that person is in front of us and the 
agent is doing the booking procedure, when they run the 
fingerprints, they'll have a complete record of their previous 
criminal and immigration histories. And those that tip the 
scale, if you will, toward gang activity or known criminal 
offenses inside of that kind of criminal activity, then we'll 
work with the local U.S. attorney's office to get them 
prosecuted.
    Mr.  Connolly. Thank you.
    My time is up. Thank you, Mr. Chairman.
    Mr.  DeSantis. The gentleman's time has expired.
    The chair now recognizes the gentleman from Georgia for 5 
minutes.
    Mr.  Hice. Thank you, Mr. Chairman.
    Mr. Judd, let me kind of go a little different direction 
here for a moment. You have noted in the past some of the 
challenges of securing the border on Federal lands.
    Specifically, what sort of obstacles do agents face when 
access is limited, say due to endangered species or wilderness 
designations?
    Mr.  Judd. I can tell you that I started my career in El 
Centro, California. In El Centro, California, if an illegal 
alien crossed the border, I could follow that illegal alien in 
my vehicle until I caught him forever. It didn't matter how 
long. I could go forever until--I followed him.
    But if you go and look at Arizona, if an illegal alien 
crosses the border, I have to get out of my vehicle. I have to 
call somebody. They have to try to get ahead of me. And there 
are very, very few access roads, which then puts us behind the 
curve. And it's very difficult to apprehend those individuals 
on protected lands.
    Mr.  Hice. Mr. Vitiello, a similar type of thought with you 
regarding Federal lands. You are aware of the permitting delays 
on Federal lands, whether it is for road maintenance or 
forward-operating bases or mobile surveillance systems, what 
have you. What is an acceptable period of time for permitting 
to take place for your agency before you have lost your 
tactical advantage?
    Mr.  Vitiello. In the concept of when agents are in what we 
call hot pursuit, when they are actively following a trail, 
even in a wilderness area, they have the ability to continue on 
that traffic. As it relates to infrastructure and other 
improvements that are made in certain protected lands, we have 
a three-agency memorandum of understanding with the Department 
of Agriculture and the Department of Interior to work through 
things like permitting, environmental assessments, for 
improvements that we want to make to install surveillance 
equipment or access roads, et cetera.
    Mr.  Hice. But at some point, your intel becomes irrelevant 
if permitting takes so long where you can't--what kind of time 
frame is reasonable?
    Mr.  Vitiello. As soon as we can do it, as soon as 
possible, is the best time frame.
    Mr.  Hice. Are you receiving cooperation from other 
agencies?
    Mr.  Vitiello. The MOU provides a mechanism for us to start 
the conversation and then work through the expectations and 
milestones to get things accomplished that we need to have 
done.
    Mr.  Hice. Okay. Of course, we all know that ISIS is 
attempting to exploit any and all of our loopholes on our 
Nation's national security and, in particular, our borders, 
from infiltrating the refugee program, and so forth.
    But when it comes to our borders, how high are the security 
risks? And how can we mitigate those?
    I will begin, Mr. Judd, with you quickly.
    Mr.  Judd. They are extremely high. The best way that we 
can mitigate these risks are resources in the field, giving us 
the resources that are necessary, so that we're not leaving 
areas of the border just completely unmanned.
    Mr.  Hice. Okay.
    Mr. Ting?
    Mr.  Ting. I think it is very much related to the volume of 
border crossers that have to be processed. I mean, we're all 
aware that there was a tremendous border surge in Fiscal Year 
2014, and preliminary statistics show that the border surge in 
the current fiscal year, 2016, may exceed that number.
    I think when you have a historic border surge, that 
obviously stresses whatever resources are available at the 
border, and it makes it more likely that security risks can 
take advantage of that situation and penetrate our border, 
simply riding the tide of the high volume of processing that 
has to occur.
    Looking at Fiscal Year 2016, I think a lot of us think 
we're confronting that situation this year.
    Mr.  Hice. Okay, let me ask you, Mr. McCraw, how high are 
the security risks? And how do we mitigate it?
    Mr.  McCraw. They're substantial. Until you secure it, you 
can't mitigate it fully.
    I know Congressman Connolly was concerned about MS-13 and 
other criminal aliens that come across, and how do you keep 
them from coming back? The only way you do it is secure it. The 
way you secure it is you provide Border Patrol additional 
agents, detection technology, aviation assets, and unity of 
effort, and work the type of programs that will deter criminal 
activity. That's the only way that you're going to be able to 
actually mitigate the risks.
    Ms.  Acer. Mr. Chairman, could I weigh in?
    Mr.  DeSantis. The gentleman's time has expired.
    We are going to have votes here, so I want to make sure 
that other members have a chance to ask their questions.
    So let me recognize the gentleman from Michigan for 5 
minutes.
    Mr.  Walberg. Thank you, Mr. Chairman.
    And thanks to the panel for being here.
    Mr. Judd, a constituent of mine who is a DHS officer 
contacted me. He has been working on the border in California. 
He expressed concerns about a policy, as he puts it, with 
California and Mexico where individuals who cross the border 
illegally cannot be sent home but are processed through, and 
then released into the U.S. with court dates as long as 7 to 10 
years down the road. Are you aware of that policy?
    Mr.  Judd. Yes, I am. We dub it the catch-and-release 
policy. It's extremely disconcerting to all Border Patrol 
agencies. If you ask Border Patrol agents, they believe that 
it's one of those driving factors that invite individuals to 
try to break our ----
    Mr.  Walberg. Is it unique to California?
    Mr.  Judd. It is not.
    Mr.  Walberg. Are all the aliens who cross the border given 
notices to appear before the court?
    Mr.  Judd. No, they're not.
    Let me take that back. I'm sorry.
    Not all illegal aliens that we arrest are given notices to 
appear. There are different factors that go into that. I would 
generally say that if we see somebody cross the border, that 
that individual would be given a notice to appear, but not all 
illegal aliens that we arrest are given notices to appear.
    Mr.  Walberg. What is the typical time frame for court 
hearings?
    Mr.  Judd. I don't deal with the court hearings. From what 
I'm hearing from high-level DHS officials, I'm hearing anywhere 
between 5 to 7 years.
    Mr.  Walberg. Mr. Vitiello? Did I get that right?
    Mr.  Vitiello. Vitiello, correct.
    Yes, I've heard the same thing. It varies by city, and it 
varies by the capacity that the Department of Justice has to 
schedule and notice those hearings.
    Ms.  Acer. I'm sorry, can I weigh in on immigration courts, 
because we have been recommending--we've just issued a report 
on the need to adequately fund the immigration courts to bring 
down those backlogs and delays.
    Mr.  Walberg. So your contention is it is funding?
    Ms.  Acer. Yes. That's actually a major need, funding for 
the immigration courts. Thank you.
    Mr.  Walberg. Let me ask Mr. Judd, are there any efforts to 
keep track of the whereabouts of the individuals that are 
awaiting these lengthy time frame court hearings?
    Mr.  Judd. Not that I'm aware of. All they need to do is 
provide us an address, and it can be an obscure address.
    For instance, in the mid-2000s, we were arresting a large 
number of Brazilians in the Tucson sector. All Brazilians were 
giving us--a large number of these Brazilians were giving us 
the exact same address.
    Mr.  Walberg. Large buildings.
    Mr.  Judd. Exactly. And we were releasing those individuals 
based upon the addresses that they were giving us.
    Mr.  Walberg. I assume this is frustrating to your 
colleagues?
    Mr.  Judd. It is extremely frustrating, but what gets even 
more frustrating is when we have a CBP Commissioner that tells 
us, if we don't like it, we can go find another job. That's 
even more frustrating.
    Mr.  Walberg. Mr. McCraw, how are the administration's 
efforts or enforcement priorities and release policies 
affecting your organization?
    Mr.  McCraw. Clearly, we're concerned. The Governor 
expressed his concern about the potential Syrian refugees 
coming to Texas. There's no adequate way to properly vet them. 
That's a concern from a national security standpoint. He's made 
it very clear.
    We're concerned that we continue to see transnational 
gangs, criminal aliens, cartels, cartel operatives, and drugs, 
heroin, marijuana, methamphetamine, and cocaine infiltrate 
Texas, throughout Texas, really throughout the Nation.
    Those are the key concerns that we have, and some of the 
other related transnational crime that happens when you become 
a transshipment center for cartel drug and human smuggling, 
including home invasions, including high-speed pursuits, 
including stash house extortions, including kidnapping, all 
those things that occur and we're having to address in Texas as 
a result of it.
    And at the end of the day, the border is not secure.
    Mr.  Walberg. I would assume you have ideas on how to 
secure that, and even policies that could be implemented rather 
rapidly. If you were allowed, as a State official responsible 
for securing your people's safety and borders, could you do it?
    Mr.  McCraw. I could tell you that this chief right next to 
me could do it, if provided the appropriate resources. If 
Border Patrol is given the sufficient Border Patrol agents, 
that detection technology and the aviation assets, they could 
do it today. There is no doubt in my mind they can do it.
    Mr.  Walberg. So this isn't a problem but for the fact you 
are not allowed to do what you are able to do, and I would 
assume, Mr. Vitiello, as well.
    Mr.  McCraw. Well, the problem is it hasn't been properly 
resourced over the decades. The bottom line is border security 
has not been a priority, not been a concern as it relates to 
multiple administrations.
    And in today's threat environment, you can't afford not to 
be concerned about border security. It impacts Texas from a 
public safety standpoint. It impacts us from a national 
security standpoint, a homeland security standpoint, and not 
just Texas, but the rest of the Nation.
    Mr.  Walberg. Thank you.
    Mr.  DeSantis. The gentlemen's time has expired.
    We are going to go to Ken Buck for 5 minutes.
    Mr.  Buck. Mr. Judd, real quickly, 2014, as a result of the 
change in the President's policy on immigration, in 2014, we 
saw a surge of minors crossing the borders. Is that true?
    Mr.  Judd. That is correct.
    Mr.  Buck. Do you know the percentage of those minors that 
are from contiguous countries, in other words, Canada and 
Mexico, versus noncontiguous countries?
    Mr.  Judd. Very few. The vast majority of those that are 
entering the country are from noncontiguous countries.
    Mr.  Buck. And how are they treated differently, if a 
juvenile from Mexico enters the country versus a juvenile from 
El Salvador?
    Mr.  Judd. If it's a juvenile from Mexico, they're going to 
be treated basically the exact same. It doesn't matter what 
country you're from. If you claim a credible fear, if you say 
that you're seeking asylum, you're going to be treated the same 
by the Border Patrol. How ICE treats them, I don't know. But by 
the Border Patrol, they're going to be treated the same.
    Mr.  Buck. Okay, Mr. Vitiello, any different treatment or 
process that is used for contiguous versus noncontiguous 
individuals?
    Mr.  Vitiello. So in the case of Mexico and then others 
from Central America, both populations would be screened to 
make sure that they weren't victims of human trafficking. In 
most cases along the border with Mexico, we can facilitate 
their return into Mexico with the assistance of their 
government.
    So the logistics and turning people over to ICE or to be 
placed with HHS doesn't necessarily always occur with folks 
from Mexico because we have a friendly neighbor, and they'll 
facilitate bringing their citizens back, repatriating them.
    Mr.  Buck. Okay, so there is a legal distinction, though, 
between how individuals are treated in contiguous countries 
versus noncontiguous?
    Mr.  Vitiello. The law requires that both--all the 
populations are screened, so that they are not victims of human 
trafficking, these juveniles. So if they are from noncontiguous 
countries, then the law allows for us to do that screening, to 
do the booking procedure.
    And once we recognize that they are unaccompanied children, 
then it's the work of DHS to transfer them to another 
government department, the Department of Health and Human 
Services, which puts them in a setting to where they can either 
be reunited with family in the States or cared for 
appropriately given their age.
    Mr.  Buck. And that's individuals in noncontiguous 
countries.
    Mr.  Vitiello. Correct.
    Mr.  Buck. But many of those noncontiguous countries, you 
use the term ``friendly'' in terms of our relationship with 
Mexico. Many of those noncontiguous countries we have a 
friendly relationship with also, don't we?
    Mr.  Vitiello. We do.
    Mr.  Buck. If the law changed, we could arrange, in the 
situation where they are not victims of human smuggling or 
seeking asylum, we could arrange for those individuals to be 
returned to those countries without going through the 5- to 7-
year hearing process that we now have.
    Mr.  Vitiello. That would require a change in the law, as 
far as I know.
    Mr.  Buck. Do you see any reason, any adverse effects in 
changing that law?
    Mr.  Vitiello. I'm not sure. I mean, I guess we'd have to 
look at exactly what--the contours of that. Certainly, in our 
relationship with Mexico, this is a smaller problem.
    Mr.  Buck. Ms. Acer indicated that all we need is more 
money. If we just printed more money, increased our national 
debt above the $19 trillion, we could take care of this 
problem.
    A much simpler solution, a much less costly and, frankly, 
much more humane to the individuals that are coming into this 
country, would be to change that law and allow those 
individuals to return to their homes and set a policy in this 
country, frankly, that doesn't attract juveniles like magnets.
    I think it would be more humane, rather than putting 
someone in limbo for 5 years where they don't know if they are 
in this country or not.
    I thank the chairman, and I yield back.
    Mr.  DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from Wisconsin for 5 
minutes.
    Mr.  Grothman. I may cover some territory you have already 
covered a little bit. But I want, in general, and this is a 
question maybe for Mr. Judd and Mr. Ting, in general, how 
effective do you believe the administration's commitment to 
border security has been? And I also want you compare it, 
because I am not a partisan person. I am under the impression 
that we were not getting a lot in the past administration 
either.
    So I guess I would like to even change the question to say, 
how sincere has the commitment been both in this administration 
and the last administration to border security, which to me is 
just a basic part of being a country?
    Mr.  Ting. Well, I was going to yield to Mr. Judd, but how 
serious are they about border security? I think there's a lack 
of concern for deterrence. I mean, I think deterrence is an 
important part of immigration policy. We will never have enough 
resources. We will never have enough Border Patrol agents on 
the line, if we don't deter people from attempting to violate 
our laws.
    So I think deterrence is part of immigration policy, which 
has been abandoned by this administration and not been a high 
priority of previous administrations.
    One of my colleagues said the poor people of the world may 
be poor but they're not stupid. They're as good at doing cost-
benefit analysis to determine what's in their best interests as 
anyone in this room.
    They can figure that out, and they are going to figure it 
out.
    And if we don't deter people, they're going to figure out 
that, hey, you have a better life in the United States. Your 
kids go to school for free. There is better security. There are 
better job opportunities. You can compete with Americans for 
jobs in the United States.
    So that fits into the cost-benefit analysis.
    We can overwhelm whatever resources we are willing to put 
on the border by sending messages that we're willing, like 
Angela Merkel, willing to accept unlimited numbers of people to 
come and live with us in the United States.
    We can do that, and it's not going to matter how much money 
we spend on the border and how many Border Patrol agents we put 
up.
    Mr.  Grothman. Okay, so I don't mean to put words in your 
mouth, but it seems to me that at least under the last two 
administrations, maybe the past three administrations, while 
the average American knows we have a Border Patrol and thinks 
we have a Border Patrol because we want to have our immigration 
laws obeyed, there has not been a commitment for many years in 
this country by powerful people who presumably ran and said 
that they wanted to enforce immigration laws.
    For whatever reason, past administrations of both parties 
don't really seem to care that much for enforcing our 
immigration laws. I do not know what is going on in their head, 
but do you think that is an accurate statement?
    Mr.  Ting. This is the first election campaign that I can 
recall that immigration has been a major issue, that, 
historically, I think both political parties have not wanted to 
raise immigration because it is such an emotional and divisive 
issue. And really for the first time, this year, suddenly 
immigration has popped up as an issue.
    Now maybe it is the unusual situations we've seen at the 
border. Certainly, it's the national security concerns that 
we're all feeling. But I think the American people are focused 
on immigration and are asking why we are having such 
overwhelming problems at our borders, and wanting something to 
be done about it.
    But I think deterrence is part of it. The administration 
has to send a message that we're serious about enforcing our 
laws, and that we're going to do the best we can to enforce 
them efficiently. And people who are not entitled to be here 
ought to expect to be turned around at the border promptly, 
getting a prompt asylum interview on the spot, not a credible 
fear interview, but an asylum interview. And if they are denied 
asylum, they should be turned around immediately.
    Mr.  Grothman. Mr. Judd?
    Mr.  Judd. Yes, if you will, what you have to have, Mr. 
Grothman, Congressman Grothman, is you have to have agency 
officials who are going to tell you the truth--not the truth. 
They have to be open. They have to tell you everything.
    I will tell you right now that you have a chief patrol 
agent right now who has been very open and has given you all 
candor. And I fear that because of that openness, because of 
that candor, our current acting chief patrol agent is not even 
going to be considered for the permanent chief patrol agent, 
because quote/unquote, ``He can't be controlled.''
    Mr.  Grothman. Okay. Thank you.
    Before my final 10 seconds, I want to correct Mr. Ting.
    I think there are a lot of Republicans who want to enforce 
the border, and I think a lot of us are very concerned about 
what happened under President Bush and don't want another 
person that is anybody like Bush representing our party in the 
future. Thank you.
    Mr.  DeSantis. The gentleman's time has expired.
    I want to thank the witnesses. I think that this hearing 
was important in fleshing out really some problematic aspects 
of our national policy here. We do not have a secured border. 
We are inviting threats to our country. And it goes from having 
more resources, more physical security, but as Professor Ting 
said, you have to have laws that are actually enforced, and 
people need to see that, and that will deter a lot of people 
coming as well.
    I will note, we are going to continue in this vein on this 
committee. And in particular, there was a recent report that 
ICE had in custody 124 different detainees who were here 
illegally that they later released, and that after ICE released 
them, they got charged with murder.
    So that is the type of thing that had ICE simply done its 
job properly, maybe those people would not have been killed in 
our country. I think that is an absolute tragedy that that has 
happened.
    With that, I will thank our witnesses again.
    If there is no further business, without objection, the 
subcommittees stand adjourned.
    [Whereupon, at 10:44 a.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]              
               


                                 <all>
</pre></body></html>
